Appendix A: Orders & Opinion Issued by Court of Appeals Fifth District of Texas at
Dallas
Exhibit l 'DENY.

Page 44 of 58

Affirmed mid Opinion Filed July 2, 2019.

In The

CCnurt nf Appeals*
Iftfflt Bf strict itf owxas itf. Bit Has
No. 05-1S-00676-CV
RUTH TORRES, Appellant
V.
PURSUIT OF EXCELLENCE-, INC, Appellee
On Appeal from the 44th Judicial Distinct Court
Dallas Connly, Texas
Trial Court Cause No. DC-16-08711

MEMORANDUM OPINION
Before Justices Myers. Osborne, and Nowell
Opinion by Justice Myers
Appellant Ruth Torres files this interlocutory appeal of the trial court’s denial of her motion
to dismiss under the Texas Citizens Participation Act (TCPA). See TEX. CIV. PRAC. & REM, CODE
ANN. §§ 27.008. 5i.Q14(a)(12). Torres brings six issues on appeal, four concerning the motion’s
untimeliness, one addressing its merits, and one questioning whether an automatic stay was in
place at the time the motion was denied. We affirm the trial court ’s denial of Torres’s motion to
dismiss.
BACKGROUND
The underlying dispute in this case concerns a contract in which Tones was to provide
human resources consulting services to appellee. Pursuit of Excellence (POE). Due to the nature
of the agreement. Torres received access to a broad range of POE’s confidential and proprietary

Page 45 of 58

information, Appellee alleged Torres prematurely terminated her contract with the company and
transmitted POE’s confidential and proprietary information to her personal electronic storage
device. On July 20. 2016. POE filed suit against Torres for breach of contract, breach of fiduciary
duty, misappropriation of trade secrets , unjust enrichment, tortious interference with contract and
business relationships, and commercial disparagement, Torres filed an answer, denying allegations
and asserting claims against POE and other parties, On February 7, 201S POE filed its first
amended petition, containing no new causes of action. POE filed a second amended petition addins
violations of the Texas Finance Code and the Texas Harmful Access by Computer Act on March
14.2018.
On May 15. 2018 Tones filed a motion to dismiss POE’s claims against her pursuant to
the TC'PA, POE filed a response, objecting that the motion was untimely because it was filed over
two years after the inception of all claims except two. and sixty-two days after those claims, and
also objecting that Ton es failed to meet her burden of proof under the TC’PA. Tones responded.
seeking leave to file her motion on the basis that she was “pro se and was unaware of this statute."
The trial court held a hearing on Torres's motion to dismiss, and the court denied that motion on
June 6, 2018, The next day, Torres filed a notice of appeal challenging the order denying her
motion to dismiss, among other orders.
TEXAS CITIZENS PARTICIPATION ACT
We review a trial court*? denial of a TC'PA motion to dismiss de novo. Dyer v. Medoc
Health Sen's., LLC. No. 05-18-00472-CV. 2019 WL 1090733. at *3 (Tex. App.—Dallas Mar. 8.
2019, pet filed). A party' triggers the TCPA's dismissal procedure by filing a motion to

1 We ordered Torres to file a brief in this case limited to the trial court’s denial of Torres's motion to dismiss
under the TCPA. We determined that we Lack jurisdiction over numerous other orders listed in Torres’s notice of
appeal, and that review of the trial court s order on DFW Airport's jurisdictional plea would proceed under a separate
case number.

-2-

Page 46 of 58

dismiss. See TEX. ClV. PRAC. & REM. CODE ANN. § 2 7.003(a). A motion to dismiss must be filed
not later than the 6Qfh day after the date of sendee of the legal action. Id, § 27.003(b). If the motion
is not filed within the statutory deadline, the movant forfeits the early-dismissal protections of the
statute. See, e.g.. Braun v. Gordon. No. 05-17-00176. 2017 WL 4250235. at *1, 3 (Tex. App.—
Dallas Sept. 26. 2017. no pet.) (mem. op.). But. the trial court may extend the time to file a motion
on a showing of good cause. TEX. CIV. PRAC. & REM. CODE ANN § 27.003(b).
ANALYSIS
1.

Torres's Motion Was Untimely

Torres's first four issues concern the timeliness of her TCPA motion to dismiss. First.
Torres asks whether the petitions and pleadings of the parties are sufficient to support dismissal
under tire TCPA without Torres explicitly invoking the Act, Both parties agree that Torres did not
mention the TCPA in anything she filed prior to May 15. Relief under the TCPA requires the filing
of a motion to dismiss under the Act. See TEX. GV. PRAC. & REM. CODE § 27.003(a). (b). Until
Torres filed her motion to dismiss under the Act. the tidal court had no motion before it on which
it was empowered to rule in accordance with the TCPA. The Act empowers the court to rule on a
motion pending before it: it does not empower the court to apply the TCPA sua sponte. TEX. Civ.
PRAC. & REM. CODE § 27.005. The trial court could not have granted this relief without a pending
motion. See TEX. ClV. PRAC. & REM. CODE § 27.003(c). We decide against Torres on this issue.
Li her second issue. Torres asks whether her TCPA Motion to Dismiss was ‘‘considered
filed timely if one day late due to technical difficulty per [TEX. R. ClV. P. 21(f)(6)]." Torres filed
her motion to dismiss on May 15. 2018. The parties do not dispute that this was more than sixty
days after she was served with the second amended petition. See TEX. CIV. PRAC. & REM. CODE
ANN § 27.003(b). In defense of her late filing. Tones argues to this Court that she was unable to
file timely due to a “technical difficulty" in the e-filing system. In the trial court, however, she
-3-

Page 47 of 58

justified her untimeliness with different explanations, arguing first that “the record did not show
senice of the citation" for POE’s amended February 7.201S pleading; second, that the record did
not show "sen-ice of the ci tation for POE’s March 14. 2018 pleading"; and third, that she "is pro
se and unaware [of the TCPA]."
Under Texas law. POE's certificates of sen-ice for both pleadings create a presumption of
sen-ice because they constitute prima facie evidence of senice. Mathis v. Lockwood, 166 S.W.Sd
743. 745 (Tex. 2005). Hie record shows that Torres was sensed with both of POE’s amended
pleadings. Torres did not argue or attempt to rebut such a presumption. Also, she provided no
evidence at trial to support her claim of technical difficulty. Because she provided no evidence of
her alleged technical difficulty in the trial court., there is no evidence for us to review here. Torres
did not meet the statutory deadline. We overrule Torres’s second issue.
In Torres's third issue, she asks whether POE's First Amended Original Petition "resfari[s]
the count for purposes of the TCPA.*' At the time Torres filed her TCPA Motion to Dismiss. POE
had filed a Second Amended Original Petition, which the trial court reviewed under the TCPA.
The record shows Torres was served with the Second Amended Original Petition on March 14.
201S. Toires filed her motion to dismiss under the TCPA on May 15. 201S, which is more than
sixty days later. We need not address whether the dock was “restarted" by the February 7 filing
and service, because even if it was. Torres’s TCPA motion to dismiss would have been filed more
than sixty days after she was served with the Second Amended original petition, making Iter motion
untimely. See TEX. CIV. PRAC. <£ REM. CODE ANN. § 27.003(b).
Tones's fourth issue contending her TCPA motion was timely is that it was filed within
sixty- days after service of other motions by POE. making it timely as to those motions. However.
Toires moved only to dismiss POE's pleaded causes of action in her motion: she did not move to
dismiss any legal actions by POE filed within die sixty-day period. Because she did not move to
-4~

Page 48 of 58

dismiss any of POE’s interim motions, we need not determine whether any of POE’s interim
motions constitute “legal actions" within the TCPA’s statutory definition of that term. See TEX.
CIV. PRAC. & REM. CODE §27.001(6). We ovemile Torres’s fourth issue.
II.

Torres’s Untimely Motion Makes It Unnecessary to Address the Merits of Her
Remain ing Ai gwnen ts

Tones raises two additional issues before this Court. In her fifth issue, she asks this Court
to address the motion on its merits, hi light of our conclusion that the motion was untimely, we
need not examine its merits. See Braun v. Gordon. No. 05-17-00176. 2017 WL 4250235. at *1. 3
(Tex. App.—Dallas Sept. 26. 2017, no pet.) (mem. op.), hi her sixth issue. Torres asks whether
there was an automatic stay under section 51.014(b) at the time the motion to dismiss was denied.
Because the motion was untimely, we need not examine the possible existence of a stay. See id.
(concluding that the movant's failure to have the case set for a timely hearing results in the movant
forfeiting the TCPA's protections, and the case should continue as if the motion to dismiss was
never filed).
CONCLUSION
We affirm the trial court’s denial of the motion to dismiss.

/Lana Myers/
LANA MYERS
JUSTICE

180676F.P05

-5-

Page 49 of 58

(Ertiirt nf Appeals;
Iftfilt 391 strict rtf <mms at Dallas
JUDGMENT
On Appeal from the 44th Judicial District
Court. Dallas County. Texas
Trial Court Cause No. DC-16-08711.
Opinion delivered by Justice Myers.
Justices Osborne and Nowell participating.

RUTH TORRES. Appellant
No. 05-18-00676-CV

V.

PURSUIT OF EXCELLENCE. INC..
Appellee

In accordance with this Court’s opinion of this date, the judgment of the trial court is
AFFIRMED.
Judgment entered this 2nd day of July. 2019.

-6~

Page 50 of 58

Appendix B: Trial Court Orders
Exhibit 2-

Page 51 of 58

CAUSE NO, DC-16-08711
PURSUIT OF EXCELLENCE,
INC.,
Plaintifff

§
§
: §

S

.

v.

RUTH TORRES, THE HR
DOCTOR, LLC, AND HR
STRATEGIC CONSULTING, INC.,

IN THE DISTRICT COURT
OF

§
: §
§
§

DALLAS COUNTY, TEXAS

§
§

§

Defendants.

44TH JUDICIAL DISTRICT

ORDER DENYING DEFENDANT’S MOTION TO DISMISS
UNDER TEXAS CITIZENS PARTICIPATION ACT
The Court, having heard the Motion to Dismiss Under Texas Citizens
Participation Act {"Motion*’) filed by Defendant Ruth Torres on May 14, 2018, the
response, evidence, pleadings, and arguments of counsel and parties, finds the
Motion should be DENIED.

IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that
Defendant Ruth Torres’s Motion is DENIED.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the Court
further finds that the Motion is untimely as being filed close to two years after the
filing of the suit as to the majority of the claims, after the 60th day after the date of
i

legal sendee of the two new claims in the Amended Petition filed March 14, 2018,
and less than one month before the current trial setting of June 11, 2018, for the
sole purpose of increasing Plaintiffs litigation costs. As a result, Defendant Torres
is ORDERED to pay Plaintiff attorney’s fees to reimburse Plaintiff for the attorney’s
1 (Page
Order Denying Defendants’ Motion to Dismiss under TCPA

Page 52 of 58

fees incurred in filing a response the Motion and appearing for the hearing on the
Motion, said fees to be assessed upon submission of an Affidavit establishing said
fees at the time of pretrial, June 8, 2018.
ffjAU (*t <2-011

SIGNED:
//

!

JuDGEritESlfolN G

2|Page
Order Denying Defendants’ Motion to Dismiss under TCPA

Page 53 of 58

Appendix C: Texas Supreme Court Order
Exhibit 3'DENY Review & DENY Motion for Rehearing.

Page 54 of 58

FILE COPY

IN THE SUPREME COURT OF TEXAS

NO. 19-0863
RUTH TORRES
v.
MARIE DIAZ, MARK GALVAN,
PURSUIT OF EXCELLENCE, INC.,
ET AL. DALLAS/FT. WORTH
INTERNATIONAL AIRPORT

§
§
§
§
§
§

Dallas County,
5th District.

December 6, 2019
Petitioner's petition for review, filed herein in the above numbered and styled case,
having been duly considered, is ordered, and hereby is. denied.
January 31, 2020
Petitioner's motion for rehearing of petition for review, filed herein in the above
numbered and styled case, having been duly considered, is ordered, and hereby is, denied.
-k ★ ~k ~k A ★ St ★ ~k -k

I, BLAKE A. HAWTHORNE, Clerk of the Supreme Court of Texas, do hereby certify
that the above is a true and correc t copy of the orders of the Supreme Court of Texas in the case
numbered and styled as above, as the same appear of record in the minutes of said Court under
the date shown.
WITNESS my hand and seal of the Supreme Court of Texas, at die City of Austin, this
the 31st day of January. 2020.

Blake A. Hawthorne, Clerk
By Monica Zamaixipa. Deputy Clerk

Page 55 of 58

Additional material
from this filing is
available in the
Clerk's Office.

